September 2, 2010

JO ANN MILLER
ACTING MANAGER, MAILING AND SHIPPING SERVICES STRATEGY

LAUREN A. ZALEWSKI
MANAGER, POSTAGE TECHNOLOGY MANAGEMENT

SUBJECT: Management Advisory – Electronic Postmark Program License Fees
        (Report Number MS-MA-10-001)

This report presents the results of our self-initiated review of the Electronic Postmark®
(EPM) program (Project Number 10RG022MS000). Our objective was to determine
whether officials properly collected EPM program license fees. This audit addresses
financial risk. See Appendix A for additional information about this audit.

The EPM is an auditable time-and-date stamp service offered by authorized service
providers, under license by the U.S. Postal Service. Customers using a licensed EPM
service provider obtain Postal Service-authorized time stamps for the purpose of
substantiating, at a later time, that the original form of the electronic information
presented for time-stamping has not been altered. EPMs that an authorized service
provider issues are stored in their repositories and made available for verification for a
period of up to 7 years from the date of issuance. The Postal Service has licensed two
service providers since initiating the program in the 1990s: Authentidate Holding
Corporation (as of August 1, 2007) and Epostmarks, Inc. (as of July 1, 2009). The
license agreements require licensees to pay the Postal Service a quarterly license fee,
with additional fees for usage above a specified threshold. The Postal Service indicates
on usps.com that it serves as the back-up verifier for all EPMs issued by its licensees.

EPM Program Fees

Postal Service officials did not properly collect EPM program license fees or validate
licensees’ EPM usage and, therefore, could not confirm that licensees paid the Postal
Service all amounts due under the agreements. This occurred because the Postal
Service has not developed a process to verify EPM usage without the aid of the
licensees. Without a process to independently verify EPM usage, the Postal Service
may not collect all usage fees due and serve as a back-up verifier of EPMs. In addition,
as of August 1, 2010, Epostmarks, Inc., owed the Postal Service at least $229,610 in
quarterly license fees. The Postal Service risks revenue loss if officials do not collect the
past due license fees from Epostmarks, Inc. We consider this $229,610 of monetary
impact recoverable revenue. See Appendix B for the monetary impact calculation.
Electronic Postmark Program License Fees                                         MS-MA-10-001




Controls Over Licensees’ EPM Usage

The licensees did not always submit the required EPM usage reports and, when they
did, Postal Service officials did not validate the reported usage amounts. The EPM
license agreements require the licensees to pay the Postal Service quarterly license
fees, with additional license fees for usage over a specified threshold. The agreements
also require licensees to submit monthly usage reports to the Postal Service. While
Authentidate Holding Corporation submitted all the required monthly usage reports and
provided Postage Technology Management with daily downloads of its EPM log files,
Epostmarks, Inc., did not submit any usage reports or provide downloads of its EPM log
files. Further, program officials did not reconcile Authentidate’s usage reports with
payments received. This occurred because the Postal Service did not properly monitor
EPM usage. As a result, officials could not confirm whether the licensees paid the
Postal Service all amounts due under the agreements.

Postage Technology Management officials indicated that EPM service is designed to
protect the privacy rights of the customer. The original file to be time-stamped, such as
a Microsoft Word document, is processed on the original customer’s computer, resulting
in an electronic hash (unique fingerprint), which is then transmitted to the service
provider to be processed with an EPM. The end result is a Postal Service-signed receipt
(known as the EPM), which is returned to the original customer for safekeeping. The
service provider sends a copy of the Postal Service-signed receipt to the Postal Service
each evening in the form of an Oracle file of all EPMs generated that day.

However, the Postal Service has not developed a process to ensure that the Oracle files
include all signed receipts. We reviewed Authentidate’s EPM log files for April 2009 to
determine whether we could validate their EPM usage by reconciling the log files to their
usage reports. Because the Postal Service has no process to ensure that the Oracle
files include all signed receipts, we could not verify the accuracy of the licensees’ usage
reports without the aid of the licensee.

Management officials stated that the Postal Service chose to capture the daily
transaction files from Authentidate, but not to fund development of a front end tool
necessary to serve as a back-up verifier of EPMs. Without a process to independently
verify EPM usage, the Postal Service may not collect all usage fees due. In addition,
since the Postal Service indicates on usps.com that it is the back-up verifier of EPMs
issued by its licensees, its inability to perform this function could negatively impact the
Postal Service brand.




                                              2
Electronic Postmark Program License Fees                                       MS-MA-10-001




Quarterly License Fees

As of August 1, 2010, Epostmarks owed the Postal Service at least $229,610 in
quarterly license fees. Management was aware that this licensee has been delinquent
since January 1, 2010. In a February 3, 2010, letter management provided Epostmarks
a 120-day notice of termination of their license agreement. Management stated they
issued the letter because they decided to exercise the “Termination for Convenience”
clause in the Epostmarks license agreement.

However, on June 3, 2010, management and Epostmarks agreed to modify the
agreement and rescind the termination notice. Management preferred to substantially
revise the terms of the license agreement and Epostmarks expressed an interest in that
arrangement. Management is currently negotiating with Epostmarks to complete a new
license agreement.

Management stated they will not enter into a new agreement with Epostmarks without
full payment of past due license fees, noting that the recently signed amendment to the
license agreement provides that:

       Any outstanding payment obligations under the Agreement, if any, will
       be incorporated into a new license agreement on mutually agreed upon
       terms.

If no agreement is reached, management plans to seek payment of past due license
fees through all possible channels.

The recently signed amendment to the license agreement provides that outstanding
licensee payment obligations will be incorporated in a new agreement; however, we
believe management should promptly initiate actions to collect the past due license fees
because Epostmarks has missed three consecutive quarterly fee payments dating back
to January 2010. The Postal Service risks revenue loss if officials do not collect the past
due license fees from Epostmarks. We consider this $229,610 to be recoverable
revenue. See Appendix B for the monetary impact calculation.

We recommend the acting manager, Mailing and Shipping Services Strategy, direct the
manager, Strategic Business Development, to coordinate with the manager, Postage
Technology Management, to:

1. Develop a process to monitor and validate licensees’ Electronic Postmark usage.

We recommend the acting manager, Mailing and Shipping Services Strategy, direct the
manager, Strategic Business Development, to:




                                             3
Electronic Postmark Program License Fees                                        MS-MA-10-001



2. Remove information from usps.com that indicates that the Postal Service serves as
   a back-up verifier for all EPMs issued by its licensees until the Postal Service can
   perform this function.

3. Initiate actions to collect the past due Electronic Postmark license fees.

Management’s Comments

Management agreed with our findings, recommendations, and monetary impact of
$229,610.

In response to recommendation 1, management stated they began developing a system
to monitor, store, and validate licensees’ EPM and are currently finalizing the technical
specifications for the system, which they plan to complete in 60 to 120 days.

In response to recommendation 2, management has removed information from
usps.com that indicates the Postal Service serves as a back-up verifier of all EPMs.

In response to recommendation 3, management stated they have been working with
Epostmarks, Inc., to end their current license agreement and upgrade to a new
agreement with significantly stronger brand and product controls. Management has
informed Epostmarks, Inc., that all past due amounts must be paid before the new
license agreement can be signed. Management expects to make a decision regarding
renewal of the Epostmarks, Inc., license agreement by September 1, 2010. See
Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The U. S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to our recommendations, and management’s corrective actions
should resolve the issues identified in the report. 

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                             4
Electronic Postmark Program License Fees                                      MS-MA-10-001



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Robert Mitchell, director, Sales
and Service, or me at 703-248-2100.


      E-Signed by Darrell E. Benjamin, Jr
      VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc:       Paul Vogel
          Thomas G. Day
          Pritha Mehra
          Kevin A. Calamoneri
          Stephen J. Fox
          Corporate Audit and Response Management




                                            5
Electronic Postmark Program License Fees                                                             MS-MA-10-001



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

EPM is an auditable time-and-date stamp service offered by authorized service
providers, under license by the Postal Service. Customers using an authorized EPM
provider obtain Postal Service-authorized time stamps for the purpose of substantiating,
at a later time, that the original form of the electronic information presented for time-
stamping has not been altered. EPMs are produced by companies approved under a
certification process that authorizes them to use Postal Service-licensed technology. An
EPM is generated on a secure server that the license provider owns and maintains. The
Postal Service then issues a private signing key to each licensee and that key also
monitors and records EPM usage.

The Postal Service began exploring a value-added service for digital content files in
1991 and created the “electronic postmark.” By 1995, the Postal Service began testing
the concept and provided the service commercially until 2001, when it decided to
restructure the service. In 2002 the Postal Service formed a strategic alliance1 with
Authentidate Holding Corporation to provide EPM service.

In late 2006, the Postal Service published a Request for Information to engage the
time-date industry in changing the EPM model. Fifteen information technology
organizations participated and provided feedback to help the Postal Service determine
its role in the time-date industry. In August 2007, the Postal Service changed the
postal-supported service to a licensing model that enabled the time-date industry to use
the Postal Service’s intellectual property to create a trusted time-date stamp
environment. The Postal Service has licensed two service providers since initiating the
program in the 1990s: Authentidate Holding Corporation (as of August 1, 2007) and
Epostmarks, Inc. (as of July 1, 2009).

The current agreements provide for the licensees to pay the Postal Service a quarterly
license fee, with additional fees for usage above a specified threshold. The following
table provides EPM revenue information by fiscal year.


                 Table 1. Revenue for the EPM Program by Fiscal Year
                                                            2010 (year-to-date
             2007              2008            2009             August 1)
          $135,000                    $300,000               $450,000                     $175,0002
        Source: PRC Docket No. MC 2008-1, Filing Identification Number 60110, Accepted 6/9/2008,
                pages 10-11 (Fiscal Year 2007)
                Postal Service’s General Ledger System (Fiscal Years 2008–2010)

1
  A formal relationship between two or more parties to pursue a set of agreed-upon goals or to meet a critical
business need while remaining independent.
2
  This does not include the $229,610 quarterly license fees that Epostmarks owed the Postal Service as of August 1,
2010.




                                                         6
Electronic Postmark Program License Fees                                       MS-MA-10-001




OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether officials properly collected EPM program
license fees. To accomplish our objective, we:

      Interviewed Strategic Business Development officials to determine how many
       certified providers the Postal Service has licensed since initiating the program in
       the 1990s.

      Reviewed copies of the license agreements for each authorized service provider
       to understand the terms of the agreements, including license fees payable to the
       Postal Service.

      Analyzed EPM usage reports that each licensee is required to submit to the
       Postal Service to determine whether any of the licensees used EPMs above the
       threshold specified in their contracts in order to calculate the applicable usage
       fees due.

      Interviewed EPM program managers to determine how they monitor and validate
       licensees’ EPM usage.

      Obtained Citibank transaction detail reports for each of the authorized service
       providers from August 1, 2007, through August 1, 2010. Citibank provides a
       transaction detail report to the Postal Service each time an authorized service
       provider makes a license fee payment.

      Obtained and reviewed postings to General Ledger Account Number
       440043.108, the EPM revenue account.

      Reconciled license fees payable as outlined in the licensing agreements with the
       Citibank transaction detail reports and postings to General Ledger Account
       Number 440043.108, the EPM revenue account, from August 1, 2007, through
       August 1, 2010.

      Calculated past due license fees payable to the Postal Service by authorized
       service providers, including the applicable interest owed as prescribed by the
       licensing agreements.

      Identified and interviewed Postal Service officials responsible for the EPM
       program to determine why they have not collected all EPM license fees. We also
       identified actions the Postal Service has taken or plans to take to resolve the
       issue.




                                             7
Electronic Postmark Program License Fees                                                           MS-MA-10-001



We conducted this review from June through September, 2010, in accordance with the
Quality Standards for Inspections.3 We relied on data obtained from the Postal Service’s
general ledger system. We did not directly audit the general ledger system, but
reconciled the license fees payable as outlined in the licensing agreements with the
Citibank transaction detail reports and postings to General Ledger Account Number
440043, the EPM revenue account, for the period August 1, 2007, through August 1,
2010. We determined the data was sufficiently reliable to address the audit objective
and support our findings and conclusions. We discussed our observations and
conclusions with management officials on August 9, 2010, and included their comments
where appropriate.

PRIOR AUDIT COVERAGE

The OIG has not issued any prior audits or reviews directly related to our objective in
the past 5 years.




3
 These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of
1978 as amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and
Efficiency (CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not
been amended to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.




                                                        8
Electronic Postmark Program License Fees                                                              MS-MA-10-001



                                  APPENDIX B: MONETARY IMPACT
            Reconciliation of EPM Quarterly License Fees for Authentidate Holding Corporation
                        Quarterly                       Quarterly         Interest on
                      License Fees                    License Fees         Past Due         Recoverable
                                                                                    4
       Due Date           Due        Amount Paid        Past Due           Amount            Revenue5
    August 2007            $50,000       $50,000                 $0                   $0              $0
    October 2007            75,000        75,000                  0                    0                0
    January 2008            75,000        75,000                  0                    0                0
    April 2008              75,000        75,000                  0                    0                0
    July 2008               75,000        75,000                  0                    0                0
    October 2008            75,000        75,000                  0                    0                0
    January 2009            75,000        75,000                  0                    0                0
    April 2009              75,000        75,000                  0                    0                0
    July 2009               75,000        75,000                  0                    0                0
    October 2009            75,000        75,000                  0                    0                0
    January 2010            75,000        75,000                  0                    0                0
    April 2010              75,000        75,000                  0                    0                0
    July 20106              25,000        25,000                  0                    0                0
    SUB-TOTAL             $900,000      $900,000                 $0                   $0              $0

                    Reconciliation of EPM Quarterly License Fees for Epostmarks, Inc.
    July 2009              $75,000         $75,000               $0                  $0                 $0
    October 2009            75,000          75,000                0                   0                  0
    January 2010            75,000               0           75,000               2,688             77,688
    April 2010              75,000               0           75,000               1,535             76,535
    July 2010               75,000               0           75,000                 387             75,387
    SUB-TOTAL             $375,000        $150,000         $225,000              $4,610           $229,610


    TOTAL               $1,275,000      $1,050,000         $225,000              $4,610           $229,610

We reconciled quarterly license fees payable to the Postal Service, as outlined in the
licensing agreements, with the Citibank transaction detail reports and postings to
General Ledger Account Number 440043.108, EPM, for the period August 1, 2007,
through August 1, 2010. We then calculated the past due quarterly license fees payable
to the Postal Service, including the applicable interest allowed by the licensing
agreements, for each authorized service provider.




4
  Per the licensing agreements, interest is charged daily at an annual rate of 3 percent over the current prime rate
(Citibank’s or its predecessor’s rate as accurately published in the Wall Street Journal) or the maximum rate
permitted by law. We used a 6.25 percent annual interest rate to compute interest on the past due quarterly license
fees (3.25 percent prime rate plus 3 percent overage). The prime rate published in the Wall Street Journal has been
3.25 percent over the last year.
5
  Revenue that can be collected for goods delivered or services rendered.
6
  The agreement expired at the end of July 2010. As a result, only the license fee for 1 month was due.




                                                          9
Electronic Postmark Program License Fees                   MS-MA-10-001



                       APPENDIX C: MANAGEMENT’S COMMENTS




                                           10
Electronic Postmark Program License Fees        MS-MA-10-001




                                           11
Electronic Postmark Program License Fees        MS-MA-10-001




                                           12
